                                                                                                   May 13, 2014

Mr. Stan Z. Soloway, President and CEO
Professional Services Council
4401 Wilson Boulevard, Suite 1110
Arlington, VA 22203


Dear Mr. Soloway:

Thank you for inviting me to speak at the Professional Services Council (PSC) Dialogue on February
18, 2018. I appreciated the opportunity to hear from PSC members and to learn about the
challenges they face while working in Afghanistan.

As you may know, SIGAR has a statutory mandate to “provide … recommendations on policies
designed to promote economy, efficiency, and effectiveness in the administration of programs and
operations funded with amounts made available for the reconstruction of Afghanistan” and to keep
Congress and the Secretaries of State and Defense “fully and currently informed about problems and
deficiencies relating to the administration of such programs and operations and the necessity for
and progress on corrective action.” 1 We carry out that mandate through audits, inspections,
investigations, and data calls that feed into a variety of reports. You can examine them at our
website, www.sigar.mil.

Normally, SIGAR interacts with federal departments and agencies, notably State, Defense, and
USAID, using a formal data-call process to collect information on Afghanistan. We realize, however,
that other participants in Afghan reconstruction can provide useful information to improve
reconstruction operations and outcomes. For example, SIGAR recently solicited observations and
suggestions from dozens of nongovernmental organizations active in Afghanistan. Our request
produced insightful and illuminating comments that will lead to further study and may shape our
recommendations to Congress and to executive departments.

Now we are asking the contracting community to assist us in the same way. We realize that
contractors have played a vital role in supporting U.S. security and reconstruction efforts in
Afghanistan. Recognizing the broad role contractors have played in Afghanistan, we seek information
that can help us extract useful lessons on reconstruction and development activities, and to help
shape our ongoing efforts to improve agencies’ processes and practices.

At the same time, SIGAR will have an opportunity to take note of some of the important contributions
that contractors are making in Afghanistan and of the challenges they face. While SIGAR is tasked by
its authorizing legislation to identify matters needing corrective action, we are equally interested in



1   National Defense Authorization Act for Fiscal Year 2008, Pub. L. No. 110-181 (2008), § 1229.
identifying successful policies, programs, projects, and methods for these successes to be
sustained, expanded, and publicized as best practices or models.

Gathering your member’s observations and insights at this time is particularly important because the
drawdown of Coalition forces, possible reductions in foreign assistance, and the uncertain political
and security conditions in post-2014 Afghanistan, may substantially increase the difficulties
contractors encounter in carrying out their mission.

Decision makers in Congress and in executive agencies should be informed of the challenges your
members foresee in order to make sound decisions on future policies and practices. Significantly, as
funding levels for Afghanistan reconstruction face downward pressure, it becomes imperative to
identify those programs and initiatives that are working well and need to be sustained, in order to
protect hard-earned gains in security and development.

Last spring, I sent letters to the Secretaries of State and Defense, and to the Administrator of USAID,
asking them to provide examples of what they judged to be both successful and less than successful
programs and projects in Afghanistan, to discuss their assessment criteria, and to comment on main
factors contributing to positive or negative outcomes. My letter asked for ten (10) examples in each
category. Unfortunately, the agencies gave only generalized answers that shed little light on factors
affecting their projects’ success (see SIGAR’s website, http://go.usa.gov/WeuP, for my letter and the
agency responses).

Since then, however, I have met with a number of private sector organizations in the United States
and in Afghanistan who told me they would welcome the opportunity to share their concerns and
their suggestions regarding reconstruction projects and their interactions with federal agencies. I
greatly appreciate your generous offer to help collect and aggregate the responses provided by PSC
members, so that we can protect their confidentiality while still taking advantage of their valued
assessments.

We invite you to submit in writing, by May 27, 2014 if possible, information and observations on any
of the following topics that are appropriate to your circumstances and that you and your members
wish to address. We encourage you to consult with your member companies, including their field
personnel and their subcontractors, in preparing responses. If some members prefer not to respond
in writing, we would be happy to meet with them for an informal discussion.

Please submit your comments to SIGAR’s Director of Special Projects, Mr. Jack Mitchell, at
john.h.mitchell161.civ@mail.mil. If you have any questions about this request, you may also call Mr.
Mitchell at 703- 545-5964.




                                                               Sincerely,



                                                               John F. Sopko
                                                               Special Inspector General
                                                                 for Afghanistan Reconstruction


Enclosure(s):     Appendix I: Questions For Professional Services Council Members



SIGAR-14-58-SP Inquiry Letter: Professional Services Council                                     Page 2
APPENDIX I: QUESTIONS FOR PROFESSIONAL SERVICES COUNCIL MEMBERS

1. Factors shaping greater or lesser success: Please identify factors that contributed to success or
    failure of in programs or projects that you undertook as a contractor in Afghanistan. What factors
    contributed to success? What obstacles did you face, and what were their root causes? What
    counter-measures or process changes helped you mitigate obstacles? Which obstacles were you
    unable to overcome?



2. In-country challenges: Based on your experiences, please discuss: (a) what you regard as your
    biggest challenge while operating in Afghanistan, and (b) what additional challenges— if any —you
    foresee in the post-2014 environment in Afghanistan, and (c) your assessment of the impacts of
    shrinking U.S. civilian-oversight access post-2014 may have on the cost and practicability of
    current and future reconstruction efforts. Please cite examples or pertinent data points where
    possible.


3. Federal issues: Please discuss any policies, regulations, or practices of the federal agencies from
    whom you are receiving funding that you believe have been unnecessary impediments to
    achieving your agreed-upon undertakings, or that entail any significant unintended
    consequences. Specific examples will help us focus future audits and other SIGAR oversight
    work.


4. Suggested improvements: Please provide any suggestions you might have for improving federal
    entities’ engagement, interaction, management, and oversight of contractors in Afghanistan.
    Please also describe any suggestions that you might for improving the overall reconstruction
    effort in 2014 and beyond.




SIGAR-14-58-SP Inquiry Letter: Professional Services Council                                    Page 3
